OFFICE OF INSPECTOR GENERAL

U.S. Department of Labor
Office of Performance and Financial Accountability Audits




                               Audit of the
                            Federal Employees’
                             Compensation Act
                       Performance Measures System




                                                 Report Number:   22-02-006-04-431
                                                 Date Issued:     March 29, 2002
                                               Audit of FECA Performance Measures System




                                   TABLE OF CONTENTS


ACRONYMS                                                                              ii

EXECUTIVE SUMMARY                                                                     1

BACKGROUND                                                                            3

OBJECTIVES, SCOPE AND METHODOLOGY                                                      5

AUDIT RESULTS                                                                         6

APPENDIX – ESA’S RESPONSE                                                            11




OIG Final Report No. 22-02-006-04-431      i
                                                       Audit of FECA Performance Measures System


                                         ACRONYMS



DFEC           Division of Federal Employees Compensation
DOL            Department of Labor
ESA            Employment Standards Administration
FECA           Federal Employees’ Compensation Act
GAO            General Accounting Office
GPRA           Government Performance Results Act
LPD            Lost Production Days
OMB            Office of Management and Budget
OWCP           Office of Workers’ Compensation Programs
SFFAC          Statement of Federal Financial Accounting Concepts
SFFAS          Statement of Federal Financial Accounting Standards




OIG Final Report No. 22-02-006-04-431           ii
                                     EXECUTIVE SUMMARY

The Office of Inspector General completed an audit of the Federal Employees’ Compensation Act
(FECA) program’s six performance measures (as listed on page 4) for Fiscal Years 2000 and 1999.
Our audit objectives were to determine whether (1) DFEC=s stated mission relates to its authorizing
legislation and reported performance measures reflect achievement of legislative intent; (2) all FYs 2000
and 1999 performance goals were measurable and management controls existed over data reporting,
appropriateness, description, and definition; and (3) the full cost of accomplishing these performance
goals was developed.

The FECA program is administered by the Division of Federal Employees Compensation (DFEC). We
found that the FECA program mission relates to its legislative authority and that its six FYs 2000 and
1999 performance goals provided accountability because goals were measurable and outcome oriented.
 In addition, DFEC has been very active in coordinating the FECA program and activities with other
Federal agencies with crosscutting issues to achieve performance goals. However, management
controls over data reporting, appropriateness, description, and definition could be improved.
Specifically, goal 4 was not fully appropriate because DFEC excluded employing agencies as a
customer, goal 3 needs to include a definition for Lost Production Days, and management controls
related to goals 1, 3, 5, and 6 would be improved if written procedures were developed to document
and describe data collection and reporting procedures. Also, a system to identify the full cost of
accomplishing these performance goals, a step necessary to comply with Statement of Federal Financial
Accounting Standards (SFFAS) No. 4 requirements, has not been developed.

We commend DFEC for its efforts to develop and implement a strategic and annual performance plan
that reflects its mission with outcome based goals. In our opinion, to improve its goals and management
controls, DFEC should

        ‚       establish a performance goal for customer satisfaction that includes employing agencies;

        ‚       expand the description for performance goal number 3 (Lost Production Days) to
                define Alost production days;”

        ‚       define in writing how to calculate the quality index score for performance goal number 6
                as part of the Accountability Review;
                                                           Audit of FECA Performance Measures System



       ‚       develop written procedures to explain how (and what sources are used) to extract the
               data and make the calculations to report on performance measures 1, 3, and 5; and

       ‚       establish a time line for developing and placing in operation a system that links
               performance measures, costs and the budget.



ESA generally concurred with the findings and recommendations in this report. Their actions planned
and taken have resulted in three recommendations being closed and one recommendation being
resolved. One recommendation is unresolved pending receipt of a corrective action plan and timeline
for completion.




OIG Final Report No. 22-02-006-04-431              2
                                                          Audit of FECA Performance Measures System



                                          BACKGROUND

The DFEC in the Employment Standards Administration (ESA), Office of Workers= Compensation
Programs (OWCP), administers the FECA program. This program provides Federal employees who
sustain work-related injury or disease with adequate and timely benefits for medical care and wage loss
replacement, as well as assistance in returning to work where necessary.

The Government Performance and Results Act (GPRA) of 1993 requires agencies to prepare a 5-year
strategic plan and an annual performance plan. The first annual performance plan for the Department
and its agencies was completed in FY 1999 and the Department=s first annual performance report was
issued on March 31, 2000. During the past 2 years, the OIG has reviewed and evaluated the
Department of Labor (DOL) agencies= Fiscal Years (FYs) 2000 and 1999 strategic and annual
performance plans. Initially, we evaluated the performance goals to determine if they were outcome
oriented. We believe the next step in improving the GPRA process is to further assess agencies=
performance measures and the systems that process program performance information.

DFEC had six performance goals for FYs 2000 and 1999. Three of the goals were included in the
Department=s Annual Performance Plan. As presented on page 4, they are numbered 1-6 for easy
reference later in the report.




OIG Final Report No. 22-02-006-04-431              3
                                                                      Audit of FECA Performance Measures System


        DFEC Goals Included in DOL== s FYs 2000 and 1999 Annual Performance Plans


      Fiscal Year 2000 Performance Goals                        Fiscal Year 1999 Performance Goals

 1.   Produce $66 million in cumulative first year              Produce $5.7 million savings in the Federal Employees
      savings (FY 1999-2000) Periodic Roll                      Compensation Act Program by expanding the Periodic
      Management.                                               Roll Management project that reviews the continued
                                                                eligibility of long-term claims.

 2.   In the FECA program, save an additional $5                In the Federal Employees Compensation Act Program,
      million over FY 1999 compared to amounts                  save 5% versus amounts billed for pharmacy and
      charged through full-year implementation of fee           inpatient hospital services and 3% versus amounts
      schedules for inpatient hospital and pharmacy             billed for physician and other professional medical
      services; and save $1.5 million compared to               services through review of bills prior to payment to
      amounts charged for physician services through            identify over-utilization of services or improper use of
      the Correct Coding Initiative.                            coding medical providers.

 3.   Return Federal employees to work following an             Return Federal employees to work following an injury
      injury as early as appropriate, indicated by a 9%         as early as appropriate, as indicated by a 6% reduction
      reduction from the baseline in the average number         from the baseline in production days lost due to
      of production days lost due to disability for cases       disability for cases in the Quality Case Management
      in the Quality Case management (QCM) program              (QCM) program.
      only. Establish baselin e for all cases.




  Additional Goals Included in ESA/DFEC== s FYs 2000 and 1999 Annual Performance Plans


 4.   Improve customer satisfaction with FECA                   Increase customer satisfaction with the OWCP Federal
      services by 6 percentage points (over FY 1997             Employees = Compensation Act (FECA) Program by 4%
      base) as measured by an index of customer                 over the baseline.
      survey scores and other measures. Establish
      new baseline.

 5.   Increase employing agency timeliness in                   Increase the timelines s of notice of injury submission
      submitting notices of injury to 53% within 14             by employing Federal agencies under the FECA by
      days.                                                     10%.

 6.   Improve the quality of claims actions as measured         Improve the quality of FECA claims adjudication by
      by average accountability review Quality Index            2%.
      scores to 76.5.




OIG Final Report No. 22-02-006-04-431                       4
                                                           Audit of FECA Performance Measures System

                         OBJECTIVES, SCOPE AND METHODOLOGY

Our audit objectives were to determine whether (1) DFEC=s stated mission relates to its authorizing
legislation and reported performance measures reflect achievement of legislative intent; (2) all FYs 2000
and 1999 performance goals were measurable and management controls existed over data reporting,
appropriateness, description, and definition and (3) the full cost of accomplishing these performance
goals was developed.

To perform this audit, we reviewed and analyzed: (1) performance reports; (2) FECA program
legislation; (3) strategic and performance plans; (4) budgets, mission and function statements; and (5)
organizational and staffing plans. Since DFEC administers the FECA program, we also interviewed
DFEC staff at Headquarters, Department of Labor (DOL) in Washington, DC, and the New York City
District Office. In addition, OWCP staff who assist DFEC personnel were also interviewed. The
fieldwork was performed from March 2000 through August 2000. In May 2001 and September 2001,
we completed follow-up reviews with DFEC staff and reviewed the latest DOL Annual Performance
Plan for FY 2002. These follow-up reviews disclosed that none of the information reported had
changed.

Our work was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States.




OIG Final Report No. 22-02-006-04-431               5
                                                                Audit of FECA Performance Measures System



                                             AUDIT RESULTS

Mission and Reported Performance Measures Related to Authorizing Legislation

DFEC implements FECA which provides benefits to Federal employees who sustain work related
injury or disease. DFEC=s mission states that it provides Federal employees who sustain work-related
injury or disease with adequate and timely benefits, medical care, wage loss replacement, as well as
assistance in returning to work where necessary and provisions for appealing a claim. In our opinion,
DFEC=s stated mission and goals relate directly to its legislative authority.

Performance Goal Accountability

In our opinion, FYs 2000 and 1999 performance goals provided accountability1 because goals were
measurable and outcome oriented. However, management controls could be improved. Specifically,
goal 4 was not fully appropriate because DFEC excluded employing agencies as a customer, goal 3
needs to include a definition for Lost Production Days, and management controls related to goals 1, 3,
5, and 6 would be improved if written procedures were developed to document and describe data
collection and reporting procedures.

Appropriateness. Performance goal number 4 for DFEC, Aincrease customer satisfaction with
FECA services . . . as measured by index of customer survey scores . . .,” only targets the
employees (claimants) who file claims. The other segment of DFEC=s customer base, the employing
agency, is excluded from this performance goal.

Definition. Performance goal number 3, AReturn federal employees to work following an injury as
early as appropriate . . . based on Lost Production Days (LPD)@ is not clear. This goal is based on
a measure of the average number of days lost due to work-related injury or disease. There is no
complete written explanation as to what lost production days (LPD) means. Expanding the description
for this goal, perhaps in the annual performance plan, would clarify what is meant by the goal, especially
for Congress and the public.


1 We previously evaluated ESA=s strategic plan and FYs 2000 and 1999 performance plans, and provided a report to
the ESA Assistant Secretary on how the strategic and performance plans could be improved (Report No. 17-99-001-
04-001). We also analyzed ESA=s goals that were in the Department=s annual performance plan for FYs 2000 and 1999
to determine whether the goals were outcomes or outputs. In October 1999, we issued a letter to the Deputy
Secretary and the ESA Assistant Secretary indicating that all three DFEC goals in the departmental annual
performance plan were adequate (i.e., outcomes that reflect program results and are measurable)


OIG Final Report No. 22-02-006-04-431                   6
                                                           Audit of FECA Performance Measures System



Management Controls. Management controls are the policies and procedures used by agencies to
reasonably ensure that reliable and timely information is obtained, maintained, reported and used for
decision-making. The GAO Standards for Internal Controls in the Federal Government state that
management controls and all transactions and significant events need to be clearly documented. Also,
the documentation should appear in management directives, administrative policies, or operating
manuals.

The OWCP Division of Policy, Planning and Standards is responsible for the performance system,
which processes and reports GPRA performance results for DFEC. We found that management
controls concerning written policies and procedures related to significant processes used for reporting
DFEC performance measures were incomplete or nonexistent. For example:

‚       The Accountability Review Process is used to report on performance goal number 6 on page 3
        (AImprove the quality of FECA claims adjudication by 2%@). This goal relates to the quality
        of claims action as measured by the average accountability review quality index score. A team
        of specialists in various aspects of claims processing led by a special examiner from the National
        Office computes the quality index without the benefit of written procedures on how the index is
        calculated. The policies and procedures for performing accountability reviews are contained in
        the OWCP Procedure Manual, Chapter 4-300, which was revised in 1994. However, the
        manual contains no procedures for calculating the quality index score. Therefore, there is no
        assurance that the computation of the quality index score is consistently applied.

‚       One employee from OWCP is responsible for a process of collecting, compiling and reporting
        on three of DFEC=s performance goals. For performance goal numbers 1, 3 and 5, the
        employee uses a personal computer (PC) to obtain data extracted from various DFEC=s
        subsystems, depending on the performance measure being reported. This access allows the
        employee to download certain performance data, which are input to an electronic spreadsheet
        application to arrive at dollars and percentages. For the other three performance goals,
        performance data are provided to this employee from other component offices in DFEC. The
        employee places the data into a spreadsheet for reporting purposes. There are no written
        procedures for this process and only one employee has adequate knowledge and experience to
        perform the steps to complete the tasks necessary for this process.




OIG Final Report No. 22-02-006-04-431               7
                                                          Audit of FECA Performance Measures System


Recommendations: The Assistant Secretary for Employment Standards should require DFEC to
develop written procedures to:

       1. Establish a new performance goal for customer satisfaction that covers the employing
          agencies, or include employing agencies in the current customer satisfaction goal
          (performance goal 4).

       2. Expand the description for performance goal number 3 (Lost Production Days) to define
          lost production days.

       3. Define in writing how to calculate the quality index score for performance goal number 6 as
          part of the Accountability Review process.

       4. Develop written procedures to explain how (and what sources are used) to extract the data
          and make the calculations to report on performance measures 1, 3, and 5.

ESA Response:

       1. ESA has reoriented the customer satisfaction strategic goal to the position of a sustained
          strategy supporting achievement of DFEC objectives .

       2. This definition of Lost Production Days will be incorporated into the Comments section of
          the Annual Performance Plan.

       3. The quality Index Measure has been revised. The Accountability Review Manual and Team
          Leader Handbook have also been revised to include a description of the calculation of the
          index score.

       4. Narrative descriptions of the procedures for all three measures are under development.

OIG’s Conclusion:

       1. The latest unified performance goals for ESA contains a strategy concerning customer
          satisfaction that includes claimants and employing agencies. Therefore, this recommendation
          is closed.




OIG Final Report No. 22-02-006-04-431             8
                                                           Audit of FECA Performance Measures System
        2. The description for the Lost Production Days has been included in the FY 2003 DOL
           Annual Plan. This recommendation is closed.

        3. The Quality Index Measure was revised and the Procedures Manual and Team Leader
           Handbook now describe how to calculate the Quality Index Score. This recommendation
           is closed.

        4. This recommendation is considered resolved and open. Once management has
           developed narrative descriptions for all three measures, OIG will perform a follow up
           review to determine whether the recommendation can be closed.

Cost of Accomplishing Performance Goals

DFEC does not have a system to capture the full cost of accomplishing performance goals, a step
necessary to comply with SFFAS No. 4 requirements. Specifically, ESA and DFEC do not have an
integrated system in place that links the costs to the performance goals in the annual performance plan.
In June 2000, OMB Bulletin 00-04 requested agencies to provide a status on their efforts to link the
budget with performance goals. For FY 2002, agencies are to submit an integrated Annual
Performance Plan with goals associated with budget authority and outlays. The DOL has met this
requirement in its FY 2002 Annual Performance Plan. However, at this time, costs cannot be matched
to individual performance goals. The ESA budget office plans to have in place, through its ADP System
Redesign Project, an integrated system which will improve the linkage to the DOLAR$ system and
develop a cost accounting capability that will link the budget and performance goals with associated
costs. However, ESA has not established a time line for placing this system into operation.

The Federal Accounting Standards Advisory Board, which recommends accounting principles and
standards for financial reporting, has issued SFFAS No. 4 (Managerial Cost Accounting Concepts and
Standards for the Federal Government) and Statement of Federal Financial Accounting Concepts
(SFFAC) No. 2 that address the preparation of financial statements on performance. SFFAS No. 4
requires agencies to accumulate and report the full costs of accomplishing its performance measures.
SFFAC No. 2 provides for the preparation of a
Statement of Program Performance Measures, a cost-based performance statement. For these
reasons, we believe all DOL agencies should address the issue of linking program resources with
program goals.

Recommendation 5: The Assistant Secretary for Employment Standards should require DFEC to
establish a time line for developing and placing in operation a system that links performance measures,
associated costs and the budget.


OIG Final Report No. 22-02-006-04-431               9
                                             Audit of FECA Performance Measures System




OIG Final Report No. 22-02-006-04-431   10
                                                          Audit of FECA Performance Measures System
ESA Response:

DFEC is in compliance with DOL’s current level of reporting costs and performance activity and
intends to work in concert with the ESA and the Department to develop performance cost accounting
systems.

OIG’s Conclusion:

Current financial management initiatives in the Federal Government make it imperative that agencies and
programs develop cost accounting systems that link costs with performance and the budget. Therefore,
this recommendation is unresolved. To resolve, management should provide to OIG a corrective
action plan with planned milestones including timelines for implementation.




OIG Final Report No. 22-02-006-04-431             11
                                                 Audit of FECA Performance Measures System




                                      APPENDIX
                                  ESA’s Response to the
                                   Draft Audit Report




OIG Final Report No. 22-02-006-04-431      12
                                                            Audit of FECA Performance Measures System
March 26, 2002                                                                           APPENDIX




MEMORANDUM FOR ELLIOT P. LEWIS
               Acting Deputy Inspector General
                    for Audit

                          (Signed)

FROM:                      DIXON M. WILSON
                           Acting Assistant Secretary

SUBJECT:                   Audit of the Federal Employees’ Compensation                             Act
                           (FECA) Performance Measures Systems
                           Draft Audit Report No. 22-02-006-04-431

This is in response to your February 26, 2002 audit report on the Federal Employees’ Compensation
Act Performance Measures System. The Office of Inspector General (OIG) reviewed the six strategic-
level performance goals of the Division of Federal Employees’ Compensation (DFEC) for FYs 1999
and 2000. The audit objectives were to assess whether:
(1) DFEC’s stated mission relates to its authorizing legislation and reported performance measures
reflect achievement of legislative intent; (2) all FYs 2000 and 1999 performance goals were measurable
and management controls existed over data reporting, appropriateness, description, and definition; and
(3) the full cost of accomplishing these performance goals was developed.

The OIG found that the DFEC mission relates to its legislative authority and that its performance goals
provided accountability because the goals were measurable and outcome oriented. It acknowledged
that DFEC has been very active in coordinating program activities with other Federal agencies to
achieve strategic objectives. The OIG found that management controls could be improved and that
DFEC does not have a system to capture the cost of accomplishing performance goals.

For reference, the six performance categories included in the audit were:

1.   Produce Periodic Roll Management Savings
2.   Increase Medical Cost Savings
3.   Reduce Lost Production Days
4.   Improve Customer Satisfaction with DFEC services
5.   Increase Employing Agency timeliness in filing Notices of Injury
6.   Improve the quality of claims actions

OIG Final Report No. 22-02-006-04-431               13
                                                         Audit of FECA Performance Measures System




                                                 2

ESA’s response to the audit recommendations is attached. If you have any questions regarding this
response, please contact Rose Broadwater at 693-0285 or Mark Bedont at 693-0815.

Attachment




OIG Final Report No. 22-02-006-04-431            14
                                                            Audit of FECA Performance Measures System
                                Employment Standards Administration
                             Office of Workers’ Compensation Programs
                  Response to the Audit of the Federal Employees’ Compensation Act
                                    Performance Measures System
                             Draft Audit Report No. 22-02-006-04-431

Recommendations

The Assistant Secretary for Employment Standards should require DFEC to develop written
procedures to:

1. Establish a new performance goal for customer satisfaction that covers the employing agencies, or
   include employing agencies in the current customer satisfaction goal (performance goal 4);

Response: In FY 2001, FECA launched multiple broad-based strategies to improve customer services,
gauge customer needs, and measure customer satisfaction. These strategies included a multi-faceted
Communications Redesign initiative involving upgrade of telecommunications hardware and the
establishment of a central call center; a call-back survey of claimant callers to our district offices; and
focus groups held with Federal agency representatives. Two focus groups with Federal employers
were conducted in FY 2001.

Recommendations originating out of customer service surveys and focus groups continue to shape
development of program operational goals. However, when the structure of the Department of
Labor’s Performance Plan changed for FY 2002, the OWCP customer satisfaction strategic goal was
reoriented in the strategic plan to the position of a major sustained strategy supporting achievement of
the DFEC objectives.

2. Expand the description for performance goal 3 (Lost Production Days) to define “lost production
   days;”

Response: The LPD goal reviewed for this audit was a measure limited to average lost days for
DFEC’s Quality Case Management cases. QCM cases are those in which injured workers have filed
for FECA wage loss benefits following completion of an initial 45-day Continuation-of-Pay (COP)
period, while the federal employer continues to pay salary to the injured worker. The goal has since
been revised in connection with the Federal Employees Safety and Health Initiative (formerly Federal
Worker 2000) to add measurement of time loss in the COP period to measurement of time loss in all
FECA cases.

“LPD” is a measure of the average number of calendar days of paid compensation due to workplace
injury and expressed as a rate per every 100 employees for each employing agency and for the
Government as a whole. A “lost production day” is equivalent to either 8 hours of salary compensation
paid to the injured employee during their 45-day continuation-of-pay period

OIG Final Report No. 22-02-006-04-431               15
                                                           Audit of FECA Performance Measures System
following the injury, or to one workday for which FECA wage loss compensation is received by the
injured worker.
                                                   2


The calculation of LPD for each reporting period combines an aggregation of compensation time
adjusted to calendar days of: (1) total continuation-of-pay hours for every worker receiving COP
salary and 2) periods of time for which every beneficiary received compensation payments during their
first year of eligibility to receive FECA wage loss benefits.

This definition of “lost production days” will be incorporated into the Comments section of the Annual
Performance Plan.


3. Define in writing how to calculate the quality index score for performance goal number 6 as part of
   the Accountability Review process;

Response: The Quality Index measure has been revised to include an expanded set of elements. The
Accountability Review Procedure Manual and Team Leader Handbook have also been revised,
accordingly, and include a description of the calculation of the index score. These changes are effective
beginning in FY 2002.

Also, as a result of the restructuring of the Department of Labor Performance Plan, OWCP removed
the Quality Index goal from the DOL strategic level. The Quality Index measure remains a major goal in
the DFEC annual operational plan.


4. Develop written procedures to explain how (and what sources are used) to extract the data and
   make the calculations to report on performance measures 1,3, and 5; and

Response: Performance measures 1 and 3 have been revised subsequent to the audit. Narrative
descriptions of the procedures for all three measures are under development.


5. Establish a time line for developing and placing in operation a system that links performance
   measures, associated costs and the budget.

Response: DFEC is in compliance with the Department of Labor’s current level of reporting costs and
performance activity. The Department is continuing to examine the issue of budget and performance
integration as instructed by the Office of Management and Budget. It is OWCP’s intent to work in
concert with the Employment Standards Administration and the Department to develop performance
cost accounting systems.

OIG Final Report No. 22-02-006-04-431              16
                                             Audit of FECA Performance Measures System




OIG Final Report No. 22-02-006-04-431   17
                                             Audit of FECA Performance Measures System




OIG Final Report No. 22-02-006-04-431   18
                                             Audit of FECA Performance Measures System




OIG Final Report No. 22-02-006-04-431   19
                                             Audit of FECA Performance Measures System




OIG Final Report No. 22-02-006-04-431   20
